OFFICE OF ATTORNEY GENERAL
STATE OF OKLAHOMA

March 23, 2021

Mr. Scott S. Harris, Clerk
The Supreme Court of the United States
One First Street, NE
Washington, DC 20543
RE: Coddington v. Farris, Case No. 20-7341
Dear Mr. Harris:
Pursuant to Rule 30.4 of the Rules of the Supreme Court, undersigned counsel
hereby requests an extension of time in which to respond to the petition for writ of
certiorari filed in the above-captioned case. The extension is justified for the
following reasons.
The petition was filed on February 26, 2021. The brief in opposition is due
on April 5, 2021. Counsel for the State will not be able to complete the brief by the
filing deadline for the following reasons. Since this Court’s decision in McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020), holding that, for purposes of the Major Crimes
Act, the Creek Nation’s Reservation has not been disestablished, the undersigned
has been part of the team managing the state-wide response to the decision. Since
the decision in July 2020, the OCCA has ordered evidentiary hearings based on
McGirt in eighty-two (82) cases that had previously been abated based on the
pending McGirt litigation or have been filed since the decision. The undersigned
has been a point person being consulted as to preparations by other attorneys in these
McGirt evidentiary hearings, which involve allegations as to the existence of several
reservations beyond the Creek Nation’s Reservation. She is also lead counsel in a
number of these McGirt cases, handling recent matters including a March 2, 2021,
McGirt hearing in the capital case of Ronson Kyle Bush v. State of Oklahoma, Case
313 N.E. 21ST STREET • OKLAHOMA C1TY, OK 73105 • (405) 521-3921 • FAX: (405) 521-6246

No. CF-2008-371 (Grady County District Court); filing the State’s Proposed
Findings of Fact and Conclusions of Law on March 12, 2021, in Patrick Joseph
Terry v. State of Oklahoma, Case No. CF-2012-242 (Ottawa County District Court),
seeking a holding that the Ottawa Reservation has been disestablished; drafting the
State’s Petition for Rehearing in Shaun Michael Bosse v. State of Oklahoma, Case
No. PCD-2019-124 (Oklahoma Court of Criminal Appeals), in which Oklahoma’s
court of last resort on criminal matters recently held that the Chickasaw Nation’s
Reservation is intact and procedural bars do not apply to McGirt claims, due April
2, 2021; and assisting the Muskogee County District Attorney’s Office in State of
Oklahoma v. Kayla Ann Jones, Case No. CF-2016-34 (Muskogee County District
Court), in which a defendant who has obtained relief under McGirt is seeking the
refund of fines, costs, and fees.
The undersigned also has a number of recent filing and upcoming deadlines
in non-McGirt cases: 64-page Response in Opposition to Writ of Habeas Corpus
filed March 5, 2021, in Robinson v. Bragg, Case No. 20-CV-0086-GKF-FHM (N.D.
Okla.), 86-page Response in Opposition to Writ of Habeas Corpus filed March 22,
2021, in Zilm v. Crow, Case No. 20-CV-0509-CVE-JFJ (N.D. Okla.); and Objections
to 91-page Report and Recommendation recommending the grant of habeas relief in
Moore v. Embry, Case No. 5: 09-cv-00985-G (W.D. Okla.), due April 12, 2021.
Finally, the undersigned is a reviewer of the work of three other attorneys in
the criminal appeals unit of the Oklahoma Attorney General’s Office, and in that
capacity reviews all pleadings filed by those individuals. The undersigned is also
chief of the federal habeas unit within the division, and in so doing is in charge of
federal habeas training. These responsibilities consume a significant amount of the
undersigned’s time.

313 N.E. 21ST STREET • OKLAHOMA C1TY, OK 73105 • (405) 521-3921 • FAX: (405) 521-6246

For all of the foregoing reasons, the State respectfully requests an additional
thirty days, or until May 5, 2021, in which to file its brief in opposition.

MIKE HUNTER
ATTORNEY GENERAL OF OKLAHOMA

____________________________________
CAROLINE E.J. HUNT, OBA #32635*
ASSISTANT ATTORNEY GENERAL
313 NE 21st Street
Oklahoma City, Oklahoma 73105
(405) 521-3921 FAX (405) 521-4534
ATTORNEYS FOR RESPONDENT
*Counsel of record

313 N.E. 21ST STREET • OKLAHOMA C1TY, OK 73105 • (405) 521-3921 • FAX: (405) 521-6246

